Supreme Court. U.S.
FILED

rw

DEC 2 1 2020
No. 20-6091

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Cherrie Hollie,
Petitioner
vs.
Robert Wilkie, Secretary of Veterans Affairs,
Respondent.

PETITION FOR REHEARING OF DENIAL OF A WRIT
OF CERTIORARI

Cherrie Hollie
3675-39th Ave., Apt. 5
Oakland, CA. 84619
Telephone: (510) 482-5810
Petitioner in Pro Per

Petition for Denial of a Writ of Certiorari

\L>

("A

II
PETITION FOR REHEARING OF DENIAL OF WRIT OF CERTIORARI
Cherrie Hollie, Petitioner in Pro Per, respectfully petitions this court for a rehearing
of her the denial of her Petition for Writ of Certiorari that was filed with this court on August 26,
2020 and placed in the court's docket on October 21, 2020. Petitioner's Petition for Writ of
Certiorari. Was denied on December 7, 2020. A copy of the denial letter is attached hereto as
Exhibit "1" and made a part hereof
It is apparent that the Transcript of Hearing on May 22, 2017 of the hearing at the Bishop
Henry Whipple Federal Building in Saint Paul, Minnesota via teleconference with the Oakland,
CA. Regional Office was not included in the Record of Proceedings before this court.
Petitioner did not realize that the transcript of the May 22, 2017 hearing was not included until
after Petitioner received on December 9, 2020 this court's denial of the Petition for Writ of
Certiorari on dated December 7,2020,
U.S. Supreme Court Rule 44.2 states that any petition for the rehearing of an order denying a
petition for a writ of certiorari or extraordinary writ shall be filed within 25 days after the order
of denial of the petition for writ of certiorari. Rule 44.2 further states that the grounds for
rehearing shall be limited to intervening circumstances of a substantial or controlling effect or to
other substantial grounds not previously presented.
It is clear that a review of the transcript of the Department of Veterans Affairs hearing of
May 22, 2017 before hearing officer before Hearing Officer Jason Reger is relevant to this case.
A true copy of said hearing is attached hereto as Exhibit "2" and made a part hereof. It is clear
That pursuant to U.S. Vet. App.. R. 28.1 (a0 that all relevant documents that were before the
Secretary of Veterans Affairs and before the Board of Veterans Affairs should be included in
The record. In this case, a highly relevant document, the transcript of the Department of "
-2-

Petition for Denial of a Writ of Certiorari

Veterans Affairs Hearing of May 22, 201 7, was not included. je:
* oho

"Ai ,

Given the facts stated in the Petition for Writ of Certiorari, which alleges the
constitutional ground of denial of equal protection of the laws and violation of due process of
law. It is clear that due process of law mandates that this court consider the Department of
Veterans Affairs Hearing of May 22, 2020 Failure to consider Petitioner' significant equitable
arguments and failure of the Federal Circuit to make a finding as to whether Petitioner is the
surviving spouse of the late veteran, Charlie P. Hollie as defined by 38 C,F,R,3.54.
This is a case where the law and the equities indicate that this court should grant the
Petition for Hearing.
III
CONCLUSION
For the foregoing reasons, Petitioner Cherrie Hollie respectfully requests that this Court
grant the Petition for Rehearing.
DATED: December 18, 2020

CHERRIE A. HOLLIE
Petitioner in Pro Per
3675-39th Ave., Apt. 5
Oakland, CA. 94619
Telephone: (510) 482-5810

-3-

Petition for Denial of a Writ of Certiorari

CERTIFICATE OF COMPLIANCE
This petition is restricted to the grounds specified in Rules of the U.S. Supreme Court Rule
44.2 and is presented in good faith and not for delay.
DATED: December 21, 2020

CHERRIE A. HOLLIE
Appellant in Pro Per

-4-

Petition for Denial of a Writ of Certiorari

CERTIFICATE OF WORD COUNT
This brief complies with the type-volume limitation of Federal Rule of Appellate
Procedure Rule 32 (a) (7) (B). The brief contains 610 words. The brief also complies with
typeface requirement of Fed. R. App. 32 (a) (6). It has been prepared in a proportionally
spaced typeface using Microsoft Word Time New Roman, 12-pont font.
DATED: December 18, 2020

Appellate in Pro Per

-5Petition for Denial of a Writ of Certiorari

